Washington, D.C. 20530

March 9, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Christopher Payton May-Shaw v. United States of America,
S.Ct. No. 20-6905
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on January 4, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on March 19, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 19, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-6905
MAY-SHAW, CHRISTOPHER PAYTON
USA

PATRICK J. HANLEY
214 E. FOURTH STREET
COVINGTON, KY 41011
P.HANLEY@ATT.NET

